OFFICE OF INSPECTOR GENERAL


AUDIT OF SELECTED
USAID/KENYA AGRICULTURAL
PRODUCTIVITY AND
AGRICULTURAL TRADE
ACTIVITIES
AUDIT REPORT NO. 4-615-11-002-P
DECEMBER 14, 2010




PRETORIA, SOUTH AFRICA
Office of Inspector General

December 14, 2010

MEMORANDUM

TO:                  USAID/Kenya Mission Director, Erna Kerst

FROM:                Regional Inspector General/Pretoria, Christine M. Byrne /s/

SUBJECT:             Audit of Selected USAID/Kenya Agricultural Productivity and Agricultural Trade
                     Activities (Report No. 4-615-11-002-P)

This memorandum transmits our final report on the subject audit. We have considered
management’s comments on the draft report and have incorporated them into the final report as
appropriate. As a result of these comments, we deleted recommendation 4 in the draft report
from the final report. Management comments have been included in their entirety in appendix II
(without attachments).

The report includes seven recommendations to strengthen the mission’s agricultural productivity
and agricultural trade activities. On the basis of management’s comments on the draft report,
we consider that management decisions have been reached on recommendations 1–2 and 4–7,
with final action taken on recommendation 7. Recommendation 7 is thereby closed upon
issuance of this report. Please provide the Office of Audit Performance and Compliance Division
(M/CFO/APC) with the necessary documentation to achieve final action on recommendations 1–2
and 4–6.

Regarding recommendation 3, in response to mission comments on the draft, we modified the
recommendation by eliminating the requirement to “establish clear policy advocacy objectives”
and instead recommending that the mission remind its implementing partners of established
objectives to help ensure that policy advocacy is consistent with USAID strategy.
Consequently, a management decision has not been reached on recommendation 3. We ask
that you notify us within 30 days of any actions planned or taken to address recommendation 3.

I want to express my sincere appreciation for the cooperation and courtesy extended to my staff
during the audit.




U.S. Agency for International Development
100 Totius Street X5
Pretoria, South Africa 0027
www.usaid.gov/oig
CONTENTS
Summary of Results ....................................................................................................... 1

Audit Findings ................................................................................................................. 5

          Program Design Hindered Achievement of Stated Goal ....................................... 6

          Uncoordinated Policy Advocacy May Have
          Harmed Program Beneficiaries Financially ........................................................... 7

          Mission Did Not Verify Performance Results ........................................................ 8

Evaluation of Management Comments ....................................................................... 11

Appendix I – Scope and Methodology ........................................................................ 15

Appendix II – Management Comments ....................................................................... 17
SUMMARY OF RESULTS
Kenya is regarded as a critical country in East Africa, the economic engine of the
Greater Horn of Africa 1 and a strategic partner of the United States in fighting
transnational crime and terrorism. The United States and Kenya share a special
relationship extending back to American support for Kenyan independence.

Kenya’s agricultural sector contributes about 24 percent of the country’s gross domestic
product (GDP) and provides about 70 percent of total employment. It is estimated that
about 69 percent of all households are engaged in farming activities, and an estimated
84 percent of rural households keep livestock. Through linkages with associated
industries, the sector indirectly contributes a further 27 percent of the country’s GDP. A
poorly performing agricultural sector diminishes employment, incomes, and food
security. 2

A December 2009 World Bank report 3 projected a 2009 GDP growth rate for Kenya of
2.5 percent, well below the 3.7 percent average annual growth rate seen from 2000 to
2009, albeit an improvement from the 1.7 percent growth seen in 2008. The level of
economic growth in 2008 and 2009 also did not match Kenya’s population growth.
Although the Kenyan economy did grow in 2008 and 2009, the agricultural sector
declined—by 5 percent in 2008 and 2.3 percent in 2009. The World Bank report noted
that the agricultural sector remained “the Achilles’ heel of Kenya’s economy, both in
terms of production and wealth distribution.” The sector was hit hard by external shocks
and agricultural policies that, according to the report, benefited a very small group to the
detriment of the general public, including the majority of Kenya’s farmers. The report
also noted that rapid population growth has left Kenya unable to provide enough maize,
the staple crop, to feed the population.

USAID/Kenya strives to increase rural household incomes through market-led, value-
chain 4 development that targets three of Kenya’s most important agricultural
commodities—maize, dairy products, and horticultural products. 5 The mission aims to
expand adoption of productivity-enhancing, sustainable agricultural technologies;
enhance business linkages from small farmer to end consumer; and promote trade in
agricultural products. In addition, the mission attempts to identify and support
appropriate roles of the public and private sectors in agriculture, especially in rural areas,
and advocates for policy, regulatory, and legal reforms. Activities are managed by the
Economic Growth Team in the Agriculture, Business and Environment Office of
USAID/Kenya.


1
  USAID includes Burundi, Djibouti, Eritrea, Ethiopia, Kenya, Rwanda, Somalia, Sudan, Tanzania,
and Uganda in the Greater Horn of Africa. The region has long been characterized by war and
famine caused by widespread poverty and instability.
2
  USAID defines food security as all people at all times having both physical and economic
access to sufficient food to meet their dietary needs for a productive and healthy life.
3
  World Bank: Poverty Reduction and Economic Management Unit Africa Region. “Still Standing:
Kenya’s Slow Recovery from a Quadruple Shock (with a special focus on the food crisis).”
December 2009.
4
  The agricultural value chain refers to the stages of production, from the farm to the market.
5
  Horticulture is the cultivation of flowers, fruits, vegetables, or ornamental plants.


                                                                                             1
The 5-year economic growth strategy beginning in fiscal year (FY) 2006 was expected to
achieve the following results by 2011: (1) rural household incomes increased by 40
percent in high and medium potential areas 6 and by 50 percent in arid and semiarid
areas of Kenya; (2) sustainable and consistent increases in productivity of targeted
agricultural commodities; (3) expanded agricultural trade opportunities as evidenced by
greater volume and value of targeted commodities sold in domestic, regional and
international markets; (4) enhanced access to business support services for micro-,
small, and medium enterprises and smallholder farmers; and (5) policies that are more
conducive to sustainable long-term increases in rural incomes.

In FY 2009, USAID/Kenya obligated $11.7 million for activities designed to achieve
these goals. These activities had total funding of more than $50 million. The largest
activities were the horticultural, dairy, and maize programs, run by three implementing
partners—Fintrac, Land O’Lakes, and ACDI/VOCA, 7 respectively—through agreements
signed by USAID/Kenya. Other significant uses of funds include policy analysis and
research implemented by the Tegemeo Institute of Agricultural Policy and Development
(Tegemeo Institute); microfinance capacity building implemented by DAI; pastoral
development implemented by the Interafrican Bureau for Animal Resources; and water
and sanitation programs implemented by the Aga Khan Foundation and World Concern
Development Organization. These programs are listed in table 1 in descending order by
average cost per year.

            Table 1. Significant Economic Growth Activities Active in FY 2009
                                 Implementing        Estimated               Average Cost per
           Program                                                 Years
                                    Partner          Value ($)                   Year ($)
    Horticulture
                              Fintrac                13,096,513     6.5          2,014,848
    Development
    Dairy Sector
                              Land O’Lakes            9,000,000      5           1,800,000
    Competitiveness
    Maize Development         ACDI/VOCA              11,274,845     7.5          1,503,313
    Agriculture Policy
                              Tegemeo Institute       4,507,216      4           1,126,804
    Research and Analysis
    Access to Rural Finance   DAI                     2,199,802      3            733,267
                              Interafrican Bureau
    Pastoral Development                              1,997,594      4            499,399
                              for Animal Resources
    Water and Sanitation      Aga Khan Foundation     1,238,198      3            412,733
    Water and Sanitation      World Concern           1,200,000      3            400,000

The objective of the audit was to determine whether selected activities sponsored by
USAID/Kenya to promote agricultural productivity and agricultural trade are achieving
their main goal of increasing rural household incomes. 8

The audit found indications that beneficiaries’ household incomes have increased.
However, as of September 30, 2009, USAID/Kenya was not on track to increase rural

6
  Areas of high and medium potential are those most suitable for agriculture. USAID officials
noted that only about 20 percent of Kenya is considered to have high or medium potential.
7
   The name was developed as a result of a 1997 merger between Agricultural Cooperative
Development International and Volunteers in Overseas Cooperative Assistance.
8
  Income is defined as gross revenues less related expenses. A USAID official clarified that rural
household income was defined as the mean household income, rather than the median
household income.


                                                                                                2
household incomes by 40 percent before the end of 2011, which was the goal in the
office’s 5-year strategic plan (page 5). Factors contributing to this result included the
following:

    •   Program design hindered achievement of the program’s stated goal of increasing
        rural household incomes (page 6).
    •   Uncoordinated policy advocacy 9 resulted in a USAID implementing partner
        advocating for a policy that was likely to be detrimental to most USAID program
        beneficiaries (page 7).
    •   The mission did not verify performance results for consistency and accuracy
        (page 8).

This report recommends that USAID/Kenya:

•   Evaluate its economic growth activities to determine whether they are designed to
    achieve its strategic goals, and implement procedures to evaluate periodically the
    extent to which economic growth activities are contributing to achieving stated
    strategic goals (page 7).

•   Remind its implementing partners involved in USAID’s policy advocacy objectives to
    help ensure that the advocated policies are consistent with USAID strategy (page 8).

•   Revise its FY 2009 Full Performance Plan and Report submission; review monitoring
    and evaluation documents, and ensure that performance indicators are consistently
    defined; communicate to all implementing partners how performance reports should
    be prepared; and develop a schedule for agreement and contracting officer’s
    technical representatives to verify performance information reported by partners
    (page 10).

Detailed findings appear in the next section. The audit scope and methodology are
described in appendix I. USAID/Kenya agreed with six of the seven recommendations,
and final action was taken on one recommendation (page 11). USAID/Kenya’s
comments appear in their entirety in appendix II (excluding attachments).




9
  Advocacy is the process by which individuals and organizations attempt to influence public
policy decisions.


                                                                                          3
This passion fruit plot is farmed by a USAID/Kenya agricultural program beneficiary.
             (Photo by Regional Inspector General/Pretoria, May 2010)




                                                                                       4
AUDIT FINDINGS
The audit found indications that beneficiaries’ household incomes have increased.
However, as of September 30, 2009, USAID/Kenya was not on track to achieve its
overall goal of increasing rural household incomes by 40 percent before the end of 2011,
as stated in the economic growth strategy for the period from 2006 to 2011. A survey
commissioned by USAID/Kenya and conducted by the Tegemeo Institute found that
average household incomes had increased by 16 percent for survey respondents
between 2006 and 2008. However, the survey also reported no significant difference
between households that were targeted by USAID/Kenya’s agricultural activities and
households that were not targeted. USAID officials noted that households not targeted
by USAID/Kenya’s activities may have also benefited from the program’s business
development focus, and postulated that this explained the insignificant difference
between targeted and nontargeted households. USAID officials did not provide any
support to verify this claim.

Since the survey, the agriculture sector in Kenya has been hit by a number of problems,
as discussed below, which caused the sector to decline by 5 percent in 2008 and an
estimated 2.3 percent in 2009, according to a December 2009 World Bank report. The
growth rate noted in the Tegemeo Institute survey between 2006 and 2008 would have
needed to continue until 2011 to achieve the overall goal, which was unlikely given the
agriculture sector’s overall decline. Therefore, it is unreasonable to assume that rural
household incomes continued to increase at the rate reported between 2006 and 2008.

In addition to these overall economic problems, household incomes increased more
slowly than consumer prices from 2006 to 2009. As a result, the overall buying power of
program beneficiaries has likely decreased since 2006.

The mission cited many factors as contributing to these results:

   •   Violence following the 2007 election displaced a significant population in the
       target area of all three significant agriculture programs, killed livestock of dairy
       program beneficiaries, and destroyed infrastructure needed for the market to
       operate effectively.

   •   A severe drought from the end of 2008 to mid-2009 disrupted all the programs,
       but especially the maize program, which relies heavily on rain-fed agriculture.

   •   Economic shocks hurt several of the programs. Higher petroleum and fertilizer
       prices reduced household incomes, while the global economic downturn reduced
       international demand for horticultural products.

   •   Poor government policies and corruption hurt program beneficiaries. Specifically,
       government price-setting deterred businesses from investing in the maize value
       chain.

These factors were, by and large, outside the mission’s control. However, two factors
within the mission’s control are discussed below. The audit also noted weaknesses in
the way implementing partners and USAID/Kenya collect and report data.


                                                                                         5
Program Design Hindered
Achievement of Stated Goal
USAID’s Automated Directives System (ADS) Chapter 201, 10 “Planning,” notes that
USAID missions should “devise foreign assistance programs and activities to have the
greatest possible development impact.” ADS Chapter 200, “Managing for Results,”
states that “USAID seeks to define and organize its work around the end result it seeks
to accomplish. This requires making intended results explicit; ensuring agreement
among partners, customers, and stakeholders that proposed results are worthwhile; and
organizing daily work and interactions to achieve results effectively.” 11

One of the principal areas of focus for USAID/Kenya’s agricultural activities has been the
Kenya Maize Development Program. This program, implemented by ACDI/VOCA, has
received more than $11 million over the past 8 years. Despite this investment,
smallholder income has not increased as expected. First, maize is grown mainly for
food security purposes and has a low value relative to other crops. According to
program beneficiaries, the gross value of an acre of maize with a good harvest would be
about 50,000 Kenyan shillings ($667), whereas the gross value of an acre of passion
fruit with a good harvest would be about 600,000 Kenyan shillings ($8,000), or 12 times
as much as maize. Second, because maize production entails high input costs—maize
program officials estimate these input costs at approximately 78 percent of gross
value—doubling or tripling the productivity of a smallholder farmer’s crop would have
only a marginal effect in raising rural household incomes by the stated goal of 40
percent. On the basis of these estimates, increasing productivity from 720 kilograms per
acre to 2,250 kilograms per acre would increase net income by only about 7,480 Kenyan
shillings ($100) per acre (based on a price of 2,000 Kenyan shillings per 90-kilogram
bag). Based on the 2008 Tegemeo Institute survey, for the average smallholder this
increase would translate into about 27,000 Kenyan shillings, or about 9 percent of the
annual nominal household income of 293,167 shillings reported in the survey. Even if
productivity gains reduced input costs from 78 percent of gross value to 68 percent, the
resulting increase would have been only about 15 percent of household income.

The maize program has reported significant increases in productivity, but the decision to
focus on maize prevented USAID/Kenya from efficiently and effectively increasing rural
household incomes. Although emphasizing maize was not an effective means to
increase rural household incomes, the mission extended the original 4-year program,
which was to expire in 2006, through 2010 and increased the value of the agreement by
more than $5 million.

USAID/Kenya renewed the maize program without critically evaluating whether this
program was achieving the desired result. The mission’s Agriculture, Business and
Environment Office did not use the stated goal of increasing rural household incomes by
40 percent as its criterion for selecting which agricultural commodities to target.
Specifically, the Agriculture, Business and Environment Office had not modified its basic
strategy since 2003. A USAID/Kenya official noted that the strategy had not changed


10
     ADS 201.3.8.
11
     ADS 200.3.2.1.


                                                                                        6
because the office had not critically evaluated whether the program was achieving the
desired result.

When asked about renewing the maize program, the director of the Agriculture,
Business and Environment Office noted that he was not sure how the goal of increasing
rural household incomes by 40 percent had been developed and said that he and the
office staff have not really considered it much since the plan was written in 2005. He
also indicated that the program’s activities were broader than the overall goal of
increasing rural household incomes. His response indicates that the strategic planning
process was not given enough consideration.

Although maize program officials noted that they encourage beneficiaries to diversify
beyond maize, the program’s advocacy of maize encourages farmers to use their limited
resources to cultivate maize, reducing the available resources that could be used to
invest in a dairy cow or passion fruit seedlings. As a result of insufficient emphasis on
strategic planning, the incomes of program beneficiaries under the maize program did
not increase to the extent they could have if they had focused on horticultural or dairy
products. Therefore, the Regional Inspector General/Pretoria makes the following
recommendations.

   Recommendation 1. We recommend that USAID/Kenya critically evaluate its
   economic growth activities to determine whether they are designed to achieve
   the mission’s strategic goals, and determine whether funds could be more
   effectively allocated.

   Recommendation 2. We recommend that USAID/Kenya implement procedures
   to evaluate periodically the extent to which economic growth activities are
   contributing towards achieving stated strategic goals, including an analysis of
   programming options.

Uncoordinated Policy Advocacy May
Have Harmed Program Beneficiaries
Financially

The National Security Strategy of the United States, March 2006, notes:

       While most of the world affirms in principle the appeal of economic liberty, in
       practice too many nations hold fast to the false comforts of subsidies and trade
       barriers. Such distortions of the market stifle growth in developed countries, and
       slow the escape from poverty in developing countries. Against these short-
       sighted impulses, the United States promotes the enduring vision of a global
       economy that welcomes all participants and encourages the voluntary exchange
       of goods and services based on mutual benefit, not favoritism.

In line with this strategy, the Department of State/USAID Strategic Plan covering
FYs 2007–12 notes that, “We will support free markets and free trade to unleash the
power of the private sector to promote economic growth and prosperity.”
USAID/Kenya’s 2006 strategy notes that the mission will use a “market-led approach” to
foster economic growth.



                                                                                       7
However, in January 2009, a subpartner of ACDI/VOCA advised the Minister of
Agriculture that farmers could not support themselves with the price that the National
Cereals and Produce Board (NCPB) was paying for maize in early 2009. The
ACDI/VOCA FY 2009 annual report stated that “on 28th January 2009 CGA [the
subpartner] members held a meeting with the Minister of Agriculture, Hon. William Ruto,
at his office. At this meeting, the GoK [Government of Kenya] revised the NCPB buying
price for maize to Kshs [Kenyan shillings] 2,300 up from Kshs 1,950.” This action
increased the price of maize for consumers. Because, as noted in a December 2009
World Bank report, more than 60 percent of smallholder farmers are net buyers of
maize, the policy change resulting from the advocacy may have hurt most program
beneficiaries. The Government of Kenya has maintained the 2,300 Kenyan shillings
buying price set in early 2009, while countries such as South Africa have exported maize
at the equivalent of 1,000 Kenyan shillings per 90-kilogram bag.

This policy advocacy was due to a lack of awareness by the mission and its partners of
the overall economic growth strategy. While USAID was not involved in the policy
change directly, USAID/Kenya officials nonetheless defended ACDI/VOCA’s actions by
noting that the subpartner is a member-based farmer organization and was advocating
on behalf of its members, even though the initiative was at variance with the mission’s
strategy. Maize program officials noted that the Government of Kenya needed to
intervene to allow maize farmers to recover their costs. This type of intervention
artificially increased the market price, contrary to the market-led approach adopted by
USAID. Additionally, the subpartner’s assertion that maize farmers could not recover
their costs at the original market price calls into question the effectiveness of increasing
rural household incomes by increasing maize production, as described above.

Raising grain prices through market intervention or trade restrictions implies transfer of
income from rural and urban households to a small proportion of well-to-do, large-scale
farmers. These actions undermine the policy of increasing rural household incomes and
decreasing economic inequality. Based on these circumstances, the Regional Inspector
General/Pretoria makes the following recommendation.

      Recommendation 3.           We recommend that USAID/Kenya remind its
      implementing partners involved in policy analysis and advocacy of policy
      advocacy objectives to help ensure that implementing partners advocate for
      policies consistent with USAID strategy.

Mission Did Not Verify
Performance Results
USAID’s ADS Chapter 203, “Assessing and Learning,” 12 addresses data quality
standards. These standards require that data clearly and adequately reflect the
intended result and that established mechanisms be in place to help ensure high-quality
reported data.

The audit disclosed errors, unsupported figures, and internal inconsistencies in three of
the five performance indicators prepared for FY 2009 and selected as representative of

12
     ADS 203.3.5.1


                                                                                          8
the program by mission officials, as described below.

   •   Although ACDI/VOCA officials said that they were confident that at least 370,000
       households benefited from the maize program in FY 2009, the officials did not
       have any summary documentation to allow verification of this result. Although
       the mission’s performance management plan noted that the maize program
       maintains information on names of beneficiaries, sex, household composition,
       the education level of household members, the amount of land owned, and
       Global Positioning System coordinates, the maize program could not produce
       any of this information for the 370,000 households that reportedly benefited from
       the program. A maize program official noted that program staff members tally
       the number of seed recipients from reviewing logs kept by seed distributors.
       Staff members do not keep records of their math.

   •   The dairy program, implemented by Land O’Lakes, reported supporting 80,119
       households in FY 2009 and 102,656 households since the start of the program,
       but the mission used the 102,656 households to prepare its FY 2009 annual
       report. Using the cumulative total overstated the number of dairy program
       beneficiaries by 28 percent.

   •   USAID/Kenya’s FY 2009 Full Performance Plan and Report presented significantly
       misleading information. Specifically, the report summary stated that smallholder
       horticulturalists had sold 20 million metric tons as a result of USAID assistance,
       while the narrative agreed with the horticulture program’s annual report in noting
       that USAID had helped smallholder horticulturalists increase their sales by 20,010
       metric tons.

   •   The dairy program’s target for 2009 was 19,900 metric tons of dairy products
       valued at $10 million. The reported result was 3,396 metric tons, with a value of
       $12 million. These figures indicate that the estimated value of dairy products
       ($500 per metric ton) used in setting the target was badly flawed: The actual
       value was $3,612 per metric ton. These figures were never questioned by the
       mission until the auditors raised it as an issue.

   •   The indicator Percent change in annual production per unit of output is not well
       designed to evaluate performance, for the following reasons:

       −   The targets and actual results are reported as numbers, rather than
           percentages, and the baselines presented are for different years, making it
           difficult to determine the progress made by the respective programs.

       −   Units of production are reported in aggregate, although maize, dairy products,
           and nuts are not measured in comparable units of production.

       −   After a few years, beneficiaries will graduate from the program and new
           beneficiaries will be added, lowering the production per unit of output.

       −   The methodology used by the maize program for its baseline did not include
           more productive areas that were being targeted by the maize program that
           would have increased this baseline significantly.



                                                                                       9
Several factors led to these deficiencies:

   •   USAID/Kenya officials were not always aware of the data collection
       methodologies used by implementing partners for reporting results because
       monitoring and evaluation documents utilized by mission officials (such as the
       performance monitoring plan) did not always accurately state these
       methodologies.

   •   Implementing partners had difficulty answering questions related to supporting
       documentation for reported indicators, and mission officials did not recognize that
       data quality was a problem. For example, both mission and maize program
       officials participated in three meetings without providing support for the 370,000
       households that were claimed to have benefited from the maize program in the
       mission’s reporting.

   •   Finally, the agreement officer’s technical representatives and contracting officer’s
       technical representatives did not adequately review implementing partner
       performance reporting systems, allowing deficiencies such as the lack of support
       for the 370,000 households noted above to persist for years without being
       addressed.

As a result of unreliable and misstated reporting, USAID cannot determine whether the
program has been successful. To address these deficiencies, this audit makes the
following recommendations.

   Recommendation 4. We recommend that USAID/Kenya (a) review its fiscal
   year 2009 Full Performance Plan and Report submission, (b) identify which
   figures are inaccurate, and (c) revise the report accordingly to prevent others
   from relying on inaccurate figures in the future.

   Recommendation 5. We recommend that USAID/Kenya review monitoring and
   evaluation documents, including the performance monitoring plans for
   implementing partners and the mission, and make the necessary changes to
   ensure that performance indicators are consistently defined.

   Recommendation 6. We recommend that USAID/Kenya communicate to all
   implementing partners the way performance reporting should be prepared,
   stressing the need to maintain supporting documentation for all reported
   information.

   Recommendation 7. We recommend that USAID/Kenya develop a schedule for
   agreement officer’s technical representatives and contracting officer’s technical
   representatives to review periodically the performance reporting systems and
   information for the agreements and contracts they oversee.




                                                                                        10
EVALUATION OF
MANAGEMENT COMMENTS
In its comments on the draft report, USAID/Kenya agreed with recommendations 1–2
and 5–8, and disagreed with recommendations 3 and 4. In response, we modified
recommendation 3 and deleted recommendation 4. Consequently, recommendations 5–
8 in the draft report were renumbered as recommendations 4–7 in the final report.
Management decisions have been reached on recommendations 1–2 and 4–7, with final
action taken on recommendation 7. Recommendation 3 remains without a management
decision. Our detailed evaluation of management’s comments follows.

For recommendation 1, the mission agreed to critically evaluate its economic growth
activities to determine whether they are designed to achieve the mission’s strategic
goals and determine whether funds could be more effectively allocated. As part of this
effort, the mission is developing a multiyear Feed the Future strategy to help plan future
agriculture and food security activities, which is expected to be completed by June 30,
2011. This strategy will be informed by an upcoming independent impact evaluation
which will cover a number of areas, including value chain projects and rural finance.
Based on management’s comments, a management decision has been reached on
recommendation 1.

For recommendation 2, the mission agreed to implement procedures to evaluate
periodically the extent to which economic growth activities are contributing toward
achieving stated strategic goals, including an analysis of programming options.
Specifically, the mission is developing an agenda for knowledge management and
evaluative activities to accompany its Feed the Future strategy implementation. The
objective is to implement a dynamic evaluation/assessment schedule that will inform the
progress of Feed the Future implementation, options for programming, and future
funding, as well as to share best practices with the wider stakeholder community. This
agenda will be prepared along with the Feed the Future multiyear strategy, which will be
approved no later than June 30, 2011. Therefore, a management decision has been
reached on recommendation 2.

For recommendations 3 and 4 in the draft report, the mission disagreed with our
recommendations to establish clear policy advocacy objectives and communicate them
to all implementing partners involved in policy analysis and advocacy and to develop
procedures for mission involvement during policy advocacy to help ensure that
implementing partners advocate for policies consistent with USAID strategy. The
mission stated that it has established clear policy objectives and communicated these to
implementing partners to the extent permissible. Specifically, the project description for
the maize program signed in 2002 was clear that the approach to be employed is
market-driven. Additionally, the mission takes issue with our inclusion of the Tegemeo
Institute in this finding, rightfully pointing out that they are advocates against price
controls and government interventions in the market. As a result, we eliminated the
reference to the Tegemeo Institute.




                                                                                       11
We agree that the policy objectives are clear in the Kenya Maize Development Program
cooperative agreement. The agreement states that “the objective of the Kenya Maize
Development Program is to increase incomes of smallholder maize farmers in rural
areas through a market-driven production system” (emphasis added). Elsewhere, one of
the “program principles and approaches” in the agreement states that “implementation of
the Kenya Maize Development Program will take a market driven production approach.”

Despite these objectives, ACDI/VOCA engaged a subpartner that advised the
Government of Kenya to increase price controls, contradicting the research and advocacy
of Tegemeo Institute. Upon discovering this, the then-director of the Agriculture, Business
and Environment Office, as well as ACDI/VOCA and subpartner officials, defended the
actions of the subpartner. This lack of awareness indicates that policy advocacy
objectives were not as clearly understood as the mission believes they were.

Based on the mission’s comments, we modified recommendation 3 by eliminating the
requirement to “establish clear policy advocacy objectives” and instead recommending
that the mission remind its implementing partners of these objectives to help ensure that
policy advocacy is consistent with USAID strategy. Consequently, a management
decision has not been reached on recommendation 3.

This mission pointed out that there are limitations to its involvement under assistance
agreements. Specifically, USAID/Kenya noted that “Under the terms of its cooperative
agreement with ACDI/VOCA, sub-recipients, sub-awardees and contractors have no
relationship with USAID.”       Because of these limitations, we have deleted
recommendation 4 in the draft report from the final report.

For recommendation 4 (previously recommendation 5), the mission agreed to (1) review
its FY 2009 Full Performance Plan and Report submission, (2) identify which figures are
inaccurate, and (3) revise the report accordingly to prevent others from relying on
inaccurate figures in the future. The mission stated that this would be completed by
January 31, 2011, and therefore a management decision has been reached on
recommendation 4.

For recommendation 5 (previously recommendation 6), the mission agreed to review
monitoring and evaluation documents, including the performance monitoring plans for
implementing partners and the mission, and make the necessary changes to ensure that
performance indicators are consistently defined. Although the mission believes its
monitoring and evaluation plans are consistently defined, it is currently implementing a
new strategy that will realign the monitoring and evaluation documents by September
2011. Accordingly, a management decision has been reached on recommendation 5.

For recommendation 6 (previously recommendation 7), the mission agreed to
communicate to all implementing partners the way performance reporting should be
prepared, stressing the need to maintain supporting documentation for all reported
information. The mission noted that new agreements will include standard language on
the preparation of performance reports beginning no later than June 30, 2011. Current
partners will be resensitized through written communication no later than December 31,




                                                                                        12
2010. 13 Finally, the mission periodically holds trainings for implementing partners on
monitoring and evaluation, including one held in September 2010. Based on the mission’s
comments, a management decision has been reached on recommendation 6.

For recommendation 7 (previously recommendation 8), the mission agreed to develop a
schedule for agreement officer’s technical representatives and contracting officer’s
technical representatives to review periodically the performance reporting systems and
information for the agreements and contracts they oversee. The mission noted that
contracting and agreement officer’s technical representatives will review implementing
partners’ reporting systems every 6 months and document findings in trip reports.
Accordingly, a management decision has been reached and final action has been taken
on recommendation 7.

In addition to its responses to specific recommendations, the mission made several
general comments, which are included in appendix II. Although we generally agreed
with these comments, the following specific points should be clarified:

     •   The mission noted that the finding that the incomes of maize program
         beneficiaries did not increase to the extent they could have if activities were
         focused on horticulture or dairy is not indisputable (see page 21). Specifically,
         the mission adduced a Government of Kenya report and the potential for maize’s
         increased contribution to the Kenyan economy as evidence disputing the finding.
         Yet the mission’s own comments acknowledge the negative effect of “politically
         motivated interference” in realizing these potential benefits. Apart from issues of
         food security, this interference—which is only mentioned in the context of maize
         and no other commodity—calls into question the effectiveness and efficiency of
         continued reliance on maize as a vehicle for increasing rural household incomes.
     •   In conjunction, the mission noted that “the idea that production of horticultural
         crops can replace the production of maize by smallholders and thereby raise
         incomes of most smallholders is further undermined by the finding that at least
         initially there was very little overlap between smallholders targeted by the KMDP
         and KHDP programs” (see page 21). Nonetheless, every horticulture program
         beneficiary we spoke with also grew maize. To the audit team, this demonstrates
         that maize farmers can and sometimes do switch to horticulture products when
         the rewards outweigh the costs. However, the mission noted areas that require
         further study, including the market’s ability to absorb horticulture products and
         the willingness of smallholder farmers to switch from maize to horticulture
         products. The mission raised some excellent issues that should be addressed
         during planning for its upcoming Feed the Future initiative, described in response
         to recommendation 1.
     •   The mission disputed our estimates used to calculate the return to farmers of
         increased productivity. Although the reported numbers are not indisputable, they
         are comparable to those referenced by the mission in its comments. Specifically,
         the resulting proceeds per acre using mission figures would not have changed
         the $100 estimate noted in the report (assuming the 1,750 Kenyan shillings
         estimate) on page 6. Even when we adjusted our estimates to take into account
         the increased efficiency, the results show that under ideal circumstances

13
   In appendix II, the mission notes that partners would be resensitized through written
communication by November 30, but on December 3, 2010, the mission notified us that this
action had been delayed.


                                                                                         13
(doubling or tripling productivity), smallholder incomes would only have increased
by 9 to 15 percent, which would not be sufficient to increase rural household
incomes by 40 percent, which was the stated goal of the program.




                                                                               14
                                                                             APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Office of Inspector General conducted this audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objective. The objective was to
determine whether selected USAID/Kenya’s agricultural productivity and agricultural trade
activities are achieving their main goal of increasing rural household incomes. We believe
the evidence obtained provides that reasonable basis. Audit fieldwork was conducted at
USAID/Kenya and at selected offices and activity sites of the implementing partners in
Kenya from May 17 to June 4, 2010, and covered FY 2009.

In FY 2009, USAID/Kenya obligated $11.7 million to programs designed to increase rural
household incomes. These programs had a total funding of more than $50 million.

In planning and performing the audit, the audit team assessed management controls
related to management review, proper execution of transactions and events, and review of
performance measures and indicators.       Specifically, we examined and evaluated
documentation prepared by the mission and cooperating sponsors, including the following:

   •   Implementing partners’ agreements and amendments
   •   Implementing partners’ proposals
   •   Implementing partners’ support for reported performance indicators, as available
   •   USAID/Kenya’s Increasing Rural Household Incomes Performance Management
       Plan
   •   Target and actual performance results
   •   Data quality assessment for Strategic Objective 7
   •   USAID/Kenya’s FY 2009 Full Performance Plan and Report
   •   USAID/Kenya’s FY 2009 certification required under the Financial Managers’
       Financial Integrity Act of 1982 (as codified in 31 U.S.C. 1105, 1113, 3512)

We also interviewed key USAID/Kenya personnel, implementing partner officials, and
beneficiaries.

Methodology
To answer the objective, we interviewed mission and implementing partner officials. We
sought to understand the mission’s agricultural productivity and agricultural trade
activities and to identify the key performance indicators used to measure the contribution
of those activities to meeting the main goal of increasing rural household incomes.

Next, we examined claims and assertions made in USAID/Kenya’s Full Performance
Plan and Report for FY 2009, under “Economic Growth,” as submitted in the Foreign
Assistance Coordination and Tracking System. We considered both judgmental and
statistical sampling to test numerical assertions regarding reported beneficiaries of the
mission’s agricultural activities, but did not use any samples because the major


                                                                                       15
                                                                             APPENDIX I


implementing partners could not provide sufficient supporting documentation from which
to sample.

We also analyzed key performance indicator data to determine whether they had
apparent inconsistencies, met established targets, and were auditable. Of the six
indicators listed as key by USAID/Kenya officials, one was not reported on in FY 2009,
one did not have a target set, and two had apparent inconsistencies. Of the remaining
two, only one, Number of policies/regulations/administrative procedures analyzed as a
result of USG assistance, exceeded its target. Therefore, we placed additional
emphasis on interviewing monitoring and evaluation specialists working for the
implementing partners to determine how performance targets and results were set and
obtained. As part of this process, we conducted site visits in Kenya, but the summary
data were not available to conduct a sample of key performance indicator data.[start

We reviewed a survey conducted by the Tegemeo Institute of Agricultural Policy and
Development (Tegemeo Institute) in 2006 and 2008 and the two corresponding reports.
Specifically, we analyzed figures presented in one of the reports and interviewed officials
from the Tegemeo Institute to understand their methodology. Overall, we did not find
any deficiencies in the survey methodology.

Finally, we reviewed documents as part of our audit procedures. These included
excerpts from USAID/Kenya’s FY 2009 Full Performance Plan and Report; the
agreements with implementing partners and all modifications; and the implementing
partners’ support for reported performance indicator data. We also utilized the
Government Accountability Office’s Standards for Internal Control in the Federal
Government and USAID’s Automated Directives System, Chapters 200 through 203.




                                                                                        16
                                                                              APPENDIX II



MANAGEMENT COMMENTS


To:              Christine M. Byrne, Regional Inspector General /Pretoria

From:            Erna Kerst, USAID/Kenya Mission Director /s/

Date:            October 19, 2010

Subject:         Audit of Selected USAID/Kenya Agricultural Productivity and Trade
                 Activities (Draft Report No. 4-615-10-00X-P)

This memorandum transmits USAID/Kenya’s management responses for the eight
recommendations resulting from the above-referenced audit performed by your staff
from May 17 to June 4, 2010 (Draft Report No. 4-615-10-00X-P) (the “Draft Report”) at
USAID/Kenya.

The Mission wishes to express its appreciation for the efforts undertaken by the
Regional Inspector General’s audit staff to accurately determine whether selected
USAID/Kenya agricultural productivity and trade activities are achieving their main goal
of increasing rural household incomes. The audit has stimulated a thorough review of
the Mission’s procedures, which we believe will be improved as described below. The
Mission agrees with six of the recommendations (1, 2, 5, 6, 7 and 8) made in the Draft
Report and provides a report of existing procedures, corrective actions underway and
target completion dates for compliance with these recommendations. The Mission
disagrees with recommendations three and four of the Draft Report for specific reasons
as detailed below.

This memorandum also provides general comments and clarifications to issues raised in
the Draft Report with respect to specific program activities. The Mission believes that
certain of the Draft Report findings should be recast as qualified findings rather than
stated as undisputed facts. In the section entitled General Comments, the Mission
details a number of points made in the Draft Report related to the appropriateness of
investment in maize productivity and marketing improvements vis-à-vis other potential
investments to raise smallholder incomes, as well as to the effect on program
beneficiaries of higher maize prices paid to farmer smallholders. The Mission believes
that the Draft Report findings with regard to these points stand to benefit from additional
information, particularly of an agro-economic character, which has now been provided.

In brief, these comments highlight:

      •   Further details regarding the Mission’s focus on “smallholder farmers”; in
          particular, how this focus required strategic support of production and livelihood
          systems on which smallholder rural farmers depend. Small-scale farmers


                                                                                         17
                                                                               APPENDIX II


       contribute 75% of overall maize production, the main staple food in Kenya which
       averages over 80% of total cereals (rice, wheat, millet sorghum). The Mission’s
       focus on smallholder farmers, which required complementarity between food
       security and cash commodities. Support to the maize program was
       complemented by support to horticulture development (including tree crops),
       dairy sector competitiveness, agricultural policy, rural finance and non-financial
       business development services. Assistance to high value horticulture and dairy
       value chains in maize growing areas and other medium to high potential agro-
       ecological areas of the country was intended to contribute to increased
       household incomes and diversification of livelihoods.

   •   The Mission’s promotion of business development services, including rural
       finance, which equally aimed at diversifying off-farm income sources for rural
       households.

   •   The role of the maize program within a multi-faceted economic growth portfolio.
       The Mission’s support to the maize sector was aimed at increasing productivity
       and market efficiency of the maize production system as a means of increasing
       incomes in this predominant sub-sector.

   •   Challenges to a finding that an implementing partner aided an implementing sub-
       partner to advocate for a policy at odds with the Mission’s objectives.

I. Management Response to Recommendations

Recommendation 1. We recommend that USAID/Kenya critically evaluate its economic
growth activities to determine whether they are designed to achieve the mission’s
strategic goals and determine whether funds could be more effectively allocated.

Management Response: USAID/Kenya agrees with this recommendation. The
Mission’s Economic Growth program has been transitioning to a new strategy since the
beginning of FY2010 with the development of its “Feed the Future” (FtF) Implementation
Plan (www.feedthefuture.gov). The Mission is presently reviewing its FtF strategy
through analytical work and stakeholder consultations with the goal of developing a
multi-year strategy that will guide implementation of its future agriculture and food
security activities. Furthermore, a high-level interagency FtF strategic review will be held
November 18-19, 2010 in Washington. The purpose of the FtF country reviews is to
give senior management in Washington a sense of how countries and missions are
progressing in the planning and implementation of Feed the Future and to identify what
each mission needs from Washington in order to complete a USG multi-year food
security strategy. The reviews are also an opportunity for Washington to provide
strategic input into mission planning. The development of USAID/Kenya’s multi-year
strategy is being assisted by expert external consultancies and technical support from
USAID/Washington. In addition, the Mission will fund an independent impact evaluation
of the economic growth activities undertaken over its most recent strategic period (2006–
2011) to derive evidence-based lessons that will inform the multi-year strategy. This
evaluation will be quite extensive in that it will cover: (i) value chain projects; (ii) rural
finance; (iii) technology; (iv) research; and (v) policy projects. The evaluation is
expected to be completed no later than January 31, 2011 and the five-year FtF strategy
approved no later than the second or third quarter of FY 2011.



                                                                                           18
                                                                              APPENDIX II


Recommendation 2. We recommend that USAID/Kenya implement procedures to
evaluate periodically the extent to which economic growth activities are contributing
towards achieving stated strategic goals, including an analysis of programming options.

Management Response: USAID/Kenya agrees with this recommendation. Currently,
the Tegemeo Institute provides biannual assessments of the extent to which the
Mission’s economic growth activities are contributing to achieving the program’s goal:
Increasing Household Incomes. Tegemeo conducts a specially designed ‘Household
Indicator Survey’ to monitor, inter alia, changes in income, yield, production and gross
margins in geographic areas in which the USAID partners implement their programs.
The survey data are available for 2004, 2006, 2008; data collection for 2010 has been
completed and will be ready for use by November 2010. The survey will be reviewed to
align with the outcomes of the FtF strategy development and new indicators by
September 2011. In addition, the Mission is developing an agenda for knowledge
management and evaluative activities to accompany its FtF strategy implementation that
can be supported by employing specialized expertise from various institutions including
the Tegemeo Institute, ReSAKSS, FEWSNET, and various consultancies. This work will
be supplemented by analytical work funded by USAID/Washington. The objective is to
implement a dynamic evaluation/assessment schedule that will inform: the progress of
FtF implementation; options for programming; future funding, as well as to share best
practices with the wider stakeholder community. This agenda is planned to accompany
the FtF multi-year strategy and will be proposed to be incorporated as an addendum of
the approved multi-year strategy.

Recommendation 3. We recommend that USAID/Kenya establishes clear policy
advocacy objectives and communicate them to all implementing partners involved in
policy analysis and advocacy.

Management Response: USAID/Kenya disagrees with this recommendation. The
Mission has established clear policy objectives that are communicated to implementing
partners to the extent permissible. Specifically, the Mission’s policy objectives in support
of private sector-led markets are clearly articulated in its FY 2006 – 2011 Strategy
Statement. All policy analysis and advocacy work supported by the Mission reflects
these objectives. For example, Attachment 2 of the Kenya Maize Development Program
(KMDP) cooperative agreement signed in 2002 leaves no room for ambiguity in terms of
the market-driven approach to be employed by the implementing partner ACDI/VOCA
(Attachment 1). The Mission contends that if a project involves policy advocacy
objectives then these requirements should be clear through the project’s design and
reinforced during the processes that accompany the review, approval and oversight of
the implementing partner’s work plan. This is best done within the framework of
individual projects and is already the practice at USAID/Kenya. Furthermore, other
means exist to communicate policy objectives to implementing partners, including
feedback associated with Mission portfolio reviews, analysis of results submitted for
Agency reporting, and formative evaluations.

Findings reported on pages 7 and 8 of the Draft Report state that the Tegemeo Institute
research aided a sub-partner to lobby the Government of Kenya (GOK) to raise the price
that the National Cereals and Produce Board (NCPB) was paying for maize, and imply




                                                                                         19
                                                                              APPENDIX II


that this was a policy action supported by the institute. 14 These findings are simply not
correct. In fact, at the request of the Ministry of Agriculture (MOA), the Tegemeo Institute
computed maize production costs during a period of high input prices. The information
reported by Tegemeo indicates that even the most inefficient farmers could support
themselves at the then price of 1,950 Kenyan shillings (KSH) per 90-kilogram bag of
maize (Attachments 2 and 3). In other words, the ACDI/VOCA sub-partner’s advocacy
before the MOA to raise the price offered by the NCPB did not benefit from the research
conducted by the Tegemeo Institute. Moreover, the Tegemeo Institute has provided
analytical research advising against price controls and government interventions in the
operation of free markets (Attachment 4).

Recommendation 4. We recommend that USAID/Kenya develops procedures for
mission involvement during policy advocacy to help ensure that implementing partners
advocate for policies consistent with USAID strategy.

Management Response: USAID/Kenya disagrees with this recommendation. USAID
is limited to the degree to which it can exercise substantial involvement in the case of
assistance instruments. Findings reported on pages 7 and 8 are critical of the policy
advocacy actions of one of the sub-partners of ACDI/VOCA (the prime). Under the terms
of its cooperative agreement with ACDI/VOCA, sub-recipients, sub-awardees and
contractors have no relationship with USAID. Further, USAID/Kenya’s agreement with
ACDI/VOCA is limited to three areas of substantial involvement: (i) Annual Work Plans;
(ii) Key Personnel; and (iii) Monitoring and Evaluation. Accordingly, USAID/Kenya and
the recipient (in this case ACDI/VOCA) can agree on the objectives, principles,
approaches, tactics, results to be achieved and make adjustments as required in these
three areas. Thus, USAID/Kenya is obliged to monitor its recipient’s performance in the
area of policy advocacy to the extent necessary in order to ensure that it is in
compliance with the purpose of the agreement, which in the case of a cooperative
agreement is to “accomplish a public purpose of support or stimulation authorized by
Federal statute” (22 CFR §226.11). If USAID finds that the public purpose is not being
accomplished then it can choose to terminate or suspend the award in whole or in part “if
a recipient materially fails to comply with the terms and conditions of an award.”

USAID/Kenya’s procedures for involvement in policy advocacy are clear. The Mission
engages in policy advocacy through joint donor fora and through diplomatic avenues
with the Department of State. Also, the Mission, in collaboration with other donors,
provides support to the GOK’s Agriculture Sector Coordination Unit (ASCU) to assist
with the reform of market-distortive policies and streamline regulations in the agriculture
sector. Beyond these direct USG policy initiatives, the Mission believes that local
stakeholders’ advocacy for policies supported by the USG but acting independently of
direct USG involvement helps to impart credibility in the eyes of the GOK and public.

Recommendation 5. We recommend that USAID/Kenya (1) review its fiscal year 2009
Full performance Plan and Report submission, (2) identify which figures are inaccurate,
and (3) revise the Draft Report accordingly to prevent others from relying on inaccurate
figures in future.



14
   The unnamed subpartner is a Kenya-wide organization that represents cereal growers of all
types.


                                                                                         20
                                                                           APPENDIX II


Management Response: USAID/Kenya agrees with this recommendation. The Mission
will review its FY2009 Performance Plan and Report (PPR), identify inaccurate figures,
and revise the Draft Report by January 31, 2011.

Recommendation 6. We recommend that USAID/Kenya review monitoring and
evaluation documents, including the performance monitoring plans for implementing
partners and mission, and make the necessary changes to ensure that performance
indicators are consistently defined.

Management Response: USAID/Kenya agrees with this recommendation. It should be
noted that all performance indicators in the Mission’s monitoring and evaluation plans
are consistently defined, the majority of which are standard agency indicators. In August
2008, the Mission held a two-day partners’ workshop to streamline consistency in
interpretation of indicator definitions, which was followed-up with data quality
assessments for each partner. However, the Mission will continue to work with
implementing partners to ensure consistency in the interpretation of the definitions.
Furthermore, the Mission’s and partners’ monitoring and evaluation plans will be
reviewed and updated to align with indicators for the FtF and the new strategic focus by
September 2011.

Recommendation 7. We recommend that USAID/Kenya communicate to all
implementing partners the way performance reporting should be prepared, stressing the
need to maintain supporting documentation for all reported information.

Management Response: USAID/Kenya agrees with this recommendation. The Mission
will ensure that guidance for preparation of performance reports is consistently
communicated to all new implementing partners. This will be accomplished via standard
language to be incorporated into future agreements and contracts beginning no later
than June 30, 2011. In addition, current implementing partners will be re-sensitized to
the standards for performance reporting through written communication to them from
USAID/Kenya by November 30, 2010; the need to maintain supporting documentation
for all reported performance-related information will be emphasized in that document.
Finally, the Mission periodically participates in structured monitoring and evaluation
training and performance reporting sessions with implementing partners. For example,
recently (September 2010), the Mission facilitated a training session on the Agency’s
monitoring and evaluation standards for a new implementing partner. In the future,
USAID/Kenya will sponsor periodic workshops for its implementing partners’ monitoring
and evaluation staff so that experiences can be shared and USAID’s requirements
reinforced.

Recommendation 8. We recommend that USAID/Kenya develop a schedule for
agreement officer’s technical representatives (AOTR) and contracting officer’s technical
representatives (COTR) to review periodically the performance reporting systems and
information for the agreements and the contracts they oversee.

Management Response: USAID/Kenya agrees with this recommendation. The Mission
has taken steps to strengthen data quality through periodic data quality assessments
(DQAs) in compliance with ADS requirements. Recent assessment reports—2007 and
2009—are available. As part of their oversight role, COTRs and AOTRs working on
Economic Growth programs will review implementing partners reporting systems every
six months and document findings in trip reports. During this exercise, the COTR or


                                                                                      21
                                                                             APPENDIX II


AOTR will occasionally be accompanied by the Economic Growth and/or Mission
monitoring and evaluation officers. Structured DQAs will be undertaken within the
Economic Growth portfolio to assess all new and continuing activities to ensure data
limitations are addressed. USAID/Kenya will seek to have these assessments occur
with a periodicity that exceeds the Agency mandatory standard of a data quality
assessment at some time within the three years before submission of data reported to
Washington for Government Performance and Results Act (GPRA) reporting purposes
or for reporting externally on Agency performance (ADS 203.3.5.2).

II. General Comments

The Mission carefully reviewed the findings presented in the Draft Report to support
recommendations 1-4 and believes that some of such findings stand to benefit from
additional information, particularly of an agro-economic character, which is provided
below and in the accompanying attachments.

Ensuring Household Income: Investment in Maize versus Passion Fruit

USAID/Kenya’s support for the dairy sector through the Kenya Dairy Sector
Competitiveness Program and for horticulture through the Kenya Horticulture
Development Project (KHDP) demonstrates the Mission’s recognition of the need for
smallholder diversification in areas such as dairy and horticulture. However, this
recognition does not diminish the role of staple food, in the case of Kenya—maize—in
ensuring increased household income. Thus, the Mission believes that the Draft Report
critique of investment in Maize should be cast as a qualified finding rather than an
undisputed fact.

The Draft Report states that “the decision to focus on maize prevented USAID/Kenya
from efficiently and effectively increasing rural household incomes” (p. 6), and continues,
stating that “the incomes of program beneficiaries under the maize program did not
increase to the extent they could have if they had focused on horticultural or dairy
products” (p. 7). Nevertheless, the Mission believes this is not indisputable. For
example, despite the fact that the returns to other commodities may be higher, the
recently completed GOK Medium Term Investment Plan (MTIP) highlights the
importance of maize and other cereals in poverty reduction. “In general, agricultural
growth driven by growth in cereals crops is more effective in reducing poverty than is
that driven by other crops. Cereals are especially effective at reducing poverty amongst
the poorest households.” (MTIP, page 21) The maize value chain contribution to GDP is
approximately 3% or $942 million, which could grow if the production and marketing
system could be improved. (Agricultural Value Chain Financing in Kenya: Assessment of
Potential Opportunities for Growth, October 2009, page 41.) Politically motivated
interference in the market acts as a deterrent to increased potential for this important
commodity.

Beyond these basic facts, it is important to look into the specifics of the Draft Report’s
claim that investing in passion fruit would have been a better investment than the
Mission’s support for work in the maize sub-sector. Although, there are advantages to
passion fruit investment, the report’s interpretation eliminates capital investment, agro-
climate, and markets for produce (non-storable). Moreover, the analysis ignores why
smallholders might grow maize. Maize has a permanent market—can be stored, traders
will come to the village to purchase surplus. On the other hand with respect to


                                                                                        22
                                                                               APPENDIX II


horticultural products, if the grower does not have an established market then the
product perishes. Farmers will need a contract to establish passion fruit. The scalability
of passion fruit needs to be examined—how many smallholder maize farmers can
actually be growing passion fruit before the market is flooded?

More generally, the idea that production of horticultural crops can replace the production
of maize by smallholders and thereby raise incomes of most smallholders is further
undermined by the finding that at least initially there was very little overlap between
smallholders targeted by the KMDP and KHDP programs—only in Nandi. Thus, there is
a need for further analysis to determine if in fact maize-producing smallholders can and
will change from maize production to horticultural production, which will necessarily
include an analysis of agro-ecological, socio-economic, and market/demand factors.
However, it is clear that maize farmers (almost 75%) also tend to plant a range of other
food crops (Attachment 5). Finally, the replication of horticultural and specialty crop
production and programs is more difficult than the replication of cereals and bulk
commodity crops, due to the specialty nature of the higher-value crops. The ease of
replication and transferability of horticultural results require actual empirical evidence to
reach firm conclusions.

Doubling or Tripling Productivity will have Marginal Impact on Income

The Mission also believes that the statement in the Draft Report states that input costs
for maize producers [sic] amount to 78% of gross value (p. 6) is also disputable. Data
from Tegemeo Institute’s cost of production surveys indicate that in 2008, production
costs for those farmers, who did not rent land for maize (almost 90% of all farmers),
ranged from 47% to 68% of production value, depending on farmer efficiency and price
received. 15 For inefficient (low yield) farmers, production costs per acre were 51-68% of
price received. (Price range: 1,750 – 2,300 KSH/bag.) For efficient farmers, costs were
47% to 62%, depending on price received. In addition it is worth noting that 2008 is
likely to be a high production cost year because of the high price of fertilizer, and poor
rains.

Significantly, it is important to clarify the relationship between net income accounting and
productivity increases. As long as net income is positive, productivity increases will
result in proportionally larger increases in income the higher is the proportion of costs to
revenues. This is because productivity increases raise revenue relative to costs. To
illuminate the effect of productivity increases consider the actual 2008 data on costs of
production, and assume a price received of 1,750 KSH/bag (90kg) (in 2008 farm gate
prices ranged from 1,750 KSH/bag to 2,300 KSH/bag). Inefficient farmers had yields of
ten bags per acre, resulting in net farm income (returns to land, household/unpaid labor
and management) of 1,750x10-11,840=5,660 KSH. Because efficient farmers had
double the yields of inefficient farmers, their returns to land, household labor and
management were 1,750x20-21,810=13,190 KSH, that is, more than twice that of
inefficient farmers. At a farm-gate price of 2,300 KSH/bag, the comparable figures are
11,160 KSH and 24,190 KSH; again the higher productivity of the efficient farmer results
in more than double the net income. The conclusion is that a maize program that
doubles productivity by moving farmers from inefficient production strategies to efficient


15
  Cost of production figure taken from Tegemeo Institute’s maize production budget summary,
2008 (attached).


                                                                                          23
                                                                             APPENDIX II


production strategies can more than double net maize income, both on conceptual
grounds and on the bases of empirical evidence.

Higher Maize Prices Hurt Most Program Beneficiaries

On page 8, the Draft Report states that according to a December 2009 World Bank report,
more than 60 percent of smallholder farmers are net buyers of maize. Therefore, any
price increase will hurt program beneficiaries. However, this statement ignores the
dynamic nature of agricultural activity and the heterogeneity of farmers/consumers. It is
worth noting that Tegemeo Institute research (Food Security in Kenya: The Role of Policy
Research and Analysis, February 2009) estimates 51% of farmers as net purchasers and
that other research (http://www.fao.org/es/esc/common/ecg/17/en/JAYNE_et_al_paper_
FAO_conference_V2.pdf) identify that the proportion of net purchasers rises in poor years
and falls in good years. Nonetheless, it is indisputable that over the long-term, low food
prices are beneficial to both urban and rural populations. If the staple food markets are
stable and relatively low, then farmers will be more apt to diversify into other possibly
higher value crops.

However, there are a number of observations that can be made related to prices and by
inference to the higher price engineered by the MOA at the beginning of 2009:

   •   Urban purchasers may be hurt by the higher price, although the retail maize price
       data for the period in question do not show conclusively that urban maize prices
       rose in response to the increase in farm gate price—in fact, the increase in farm
       gate price seems to come after the increase in urban retail prices; the high retail
       prices are possibly attributable to the high world prices for maize in 2008 and
       Kenya’s maize import tariff.

   •   There is no doubt that smallholder net purchasers of maize who have no other
       production or consumption options available to them will be hurt by the higher
       price. However, by the same token, smallholders who can increase their maize
       production and move from being net purchasers to net producers will benefit from
       higher prices.

   •   The impacts of maize price increases vary by region. The percentage of maize
       growers who are net purchasers ranges from 22% in North Rift to over 90% in
       the Coast (Jayne, Myers and Joro, 2006, http://www.aec.msu.edu/fs2/
       kenya/iaae_kenya_effects_ncpb_maize_policy.pdf).

   •   Smallholders who are net purchasers of maize but with flexible consumption
       options may also benefit from the higher maize price if they can substitute other
       foods for maize (and thus move to net maize seller status without increasing
       maize production). The consumption response of smallholders in Kenya to the
       2008 food price spike has apparently not been studied.

   •   Relevant to consumption flexibility, Benson et al (Attachment 6) show that
       Uganda was able to weather the 2008 food price crisis in part because of the
       Ugandan ability to switch to food crops that weren’t affected by international price
       spikes, e.g. from maize, wheat and rice to cassava, banana and yam. Although
       a comparable analysis is not available for Kenya, one could draw the inference



                                                                                        24
                                                                             APPENDIX II


       that during times of high maize prices, consumption patterns may change
       significantly, providing net purchasers some measure of adaptation to the higher
       maize prices.

   •   Over a longer time period (e.g. past ten years), data show that the affordability of
       food in Nairobi has improved (http://www.aec.msu.edu/fs2/papers/idwp98.pdf).

Once again, the Mission wishes to express its appreciation for the efforts undertaken by
the Regional Inspector General’s audit staff and the findings in the Draft Report. We
remain available to respond to further questions or requests for information or
clarification regarding this memorandum or the information transmitted herewith.




                                                                                        25
U.S. Agency for International Development
        Office of Inspector General
       1300 Pennsylvania Ave., NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
